HHS/OIG - Audit,"Review of Medicare Credit Balances at Part B Providers,"(A-01-01-00519)
Department of Health and Human Services
"Review of Medicare Credit Balances at Part B Providers," (A-01-01-00519)
December 19, 2001
Complete
Text of Report is available in PDF format (2.28 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to identify potential Part B credit balances and substantiate their existence through
confirmation with the Medicare carriers and the beneficiaries primary insurers.  Based on our review and confirmation
with insurance companies, we found that payments made by Blue Cross and Blue Shield of Rhode Island (BSBSRI) for services
for 3 of the 10 sample beneficiary cases included 60 mistaken Part B payments valued at $5,995 that have not been recovered
by Medicare.  Of the $5,995 in mistaken payments, $2,357 represented payments for services paid by both Medicare and
the primary insurer.  The remaining $3,638 represents improper payments for services that should have been billed
to the primary insurer.  We provided BCBSRI with the claims detail information to facilitate its collection efforts
with respect to these credit balances.  The BCBSRI has taken overpayment action on the 60 mistaken payments processed
by their office.